<html>
<title> - THE COMMERCIAL SPACE LANDSCAPE: INNOVATION, MARKET, AND POLICY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    THE COMMERCIAL SPACE LANDSCAPE:
                     INNOVATION, MARKET, AND POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 25, 2019

                               __________

                           Serial No. 116-42

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-128PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                 Subcommittee on Space and Aeronautics

                 HON. KENDRA HORN, Oklahoma, Chairwoman
ZOE LOFGREN, California              BRIAN BABIN, Texas, Ranking Member
AMI BERA, California                 MO BROOKS, Alabama
ED PERLMUTTER, Colorado              BILL POSEY, Florida
DON BEYER, Virginia                  PETE OLSON, Texas
CHARLIE CRIST, Florida               MICHAEL WALTZ, Florida
KATIE HILL, California
JENNIFER WEXTON, Virginia
                         
                         
                         C  O  N  T  E  N  T  S

                             July 25, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Kendra Horn, Chairwoman, Subcommittee 
  on Space and Aeronautics, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Brian Babin, Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    11
    Written Statement............................................    12

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    13

                               Witnesses:

Dr. Bhavya Lal, Research Staff Member, IDA Science and Technology 
  Policy Institute
    Oral Statement...............................................    15
    Written Statement............................................    17

Ms. Carissa Christensen, Chief Executive Officer, Bryce Space and 
  Technology
    Oral Statement...............................................    21
    Written Statement............................................    23

Mr. Eric Stallmer, President, Commercial Spaceflight Federation
    Oral Statement...............................................    28
    Written Statement............................................    30

Mr. Michael French, Vice President, Space Systems, Aerospace 
  Industries Association
    Oral Statement...............................................    45
    Written Statement............................................    47

Ms. Laura Montgomery, Proprietor, Ground Based Space Matters and 
  Professor, Catholic University's Columbus School of Law
    Oral Statement...............................................    55
    Written Statement............................................    57

Discussion.......................................................    69

             Appendix I: Answers to Post-Hearing Questions

Dr. Bhavya Lal, Research Staff Member, IDA Science and Technology 
  Policy Institute...............................................    88

Ms. Carissa Christensen, Chief Executive Officer, Bryce Space and 
  Technology.....................................................    98

Mr. Eric Stallmer, President, Commercial Spaceflight Federation..   104

Mr. Michael French, Vice President, Space Systems, Aerospace 
  Industries Association.........................................   121

            Appendix II: Additional Material for the Record

Letter submitted by Representative Kendra Horn, Chairwoman, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........   130

 
                    THE COMMERCIAL SPACE LANDSCAPE:
                     INNOVATION, MARKET, AND POLICY

                              ----------                              


                        THURSDAY, JULY 25, 2019

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 2:11 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Kendra 
Horn [Chairwoman of the Subcommittee] presiding.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Horn. This hearing will come to order. Without 
objection, the Chair is authorized to declare a recess at any 
time. Good afternoon, everyone, and welcome to today's hearing 
on ``The Commercial Space Landscape: Innovation, Market, and 
Policy''. I especially want to thank our distinguished panel of 
witnesses today, and express my gratitude for you being here.
    From the Apollo program, and the 50th anniversary of Apollo 
11 that we just celebrated, to the Viking landers on Mars, the 
Landsat Earth observing satellites, and the Hubble Space 
Telescope, the private space sector has been a trusted partner 
in America's civil space program. While Federal Government has 
taken the lead in R&D (research and development) investments, 
design, development, testing, and construction of 
infrastructure and facilities, it has looked to the aerospace 
industry, and its skilled workforce, to implement the 
government's mission requirements, and build many of the 
spacecraft, instruments, vehicles, satellites, and systems that 
the government has launched into space. This partnership has 
worked well, and the Nation's successes in civil space owe much 
to the partnership between government and industry.
    Through these government investments, demonstrated 
capabilities have led to flourishing segments of the commercial 
space industry, and today the global space economy, including 
government space budgets, is estimated to be around $350 to 
$400 billion. Sectors within that global economy, such as 
satellite television, satellite manufacturing, and ground 
equipment and devices, like the chips in our smartphone that 
enable navigation, produce annual revenues in the tens to 
hundreds of billions of dollars. Congress and government 
policies as well have supported the development of a commercial 
space industry by setting the frameworks for regulating 
segments of the industry. This Committee's Commercial Space 
Launch Act of 1984 laid the initial regulatory framework to 
enable the emergence of a commercial space launch industry, for 
example. Other legislation provided a pathway for commercial 
remote sensing licensing, and today the commercial space 
industry is evolving.
    With these changes have come innovative technologies and 
operations, and potential new services and capabilities that 
are infusing energy and excitement into the commercial space 
industry. Private investors, venture capital, and other forms 
of investment are also expressing interest, and investing in 
the industry. According to one source, total investment in 
startup space companies was at a record $3.2 billion in 2018, 
up from about $2.5 billion in 2017. We are on the precipice of 
what could be a groundbreaking shift in technologies and 
services that affect our daily lives, whether through new 
broadband communication services, or information products 
derived from Earth remote sensing imagery. I'm excited about 
the future of commercial space, and I want the commercial space 
industry in the United States to succeed and to lead.
    To ensure continued success, it is important that we, as a 
Subcommittee with jurisdiction over commercial space, have a 
clear view of where the industry is, and where the industry is 
headed, the opportunities and challenges facing it, where and 
how the government intersects with commercial space, and what 
questions need to be answered as we carry out oversight of the 
government as a user and enabler of commercial space 
activities. So before we delve into any one issue or activity, 
or segment of the industry specifically, we're starting today 
with an overview of commercial space.
    In short, today's hearing is intended to be a ``Commercial 
Space 101,'' if you will, to guide us into prioritizing the key 
issues and areas to examine as we look forward to subsequent 
hearings on commercial space during the 116th Congress. We've 
included a variety of voices on the panel, including those 
representing the breadth and diversity of the industry, and I 
look forward to your input today.
    [The prepared statement of Chairwoman Horn follows:]

    Good afternoon, and welcome to today's hearing on ``The 
Commercial Space Landscape: Innovation, Market, and Policy.'' I 
especially want to welcome our distinguished witnesses. Thank 
you for being here.
    From the Apollo program and the 50th anniversary of Apollo 
11 that we just celebrated, to the Viking landers on Mars, the 
Landsat Earth observing satellites, and the Hubble Space 
Telescope, the private space sector has been a trusted partner 
in America's civil space program. While the Federal Government 
has taken the lead in R&D investments, design, development, 
testing, and construction of infrastructure and facilities, it 
has looked to the aerospace industry and its skilled workforce 
to implement Government mission requirements and build many of 
the spacecraft, instruments, vehicles, satellites, and systems 
that the Government has launched into space. This partnership 
has worked well, and the nation's successes in civil space owe 
much to the partnership between the Government and industry.
    Through these government investments, demonstrated 
capabilities have led to flourishing segments of the commercial 
space industry. Today the global space economy, including 
government space budgets, is estimated to be around $350-400 
billion. Sectors within that global economy, such as satellite 
television, satellite manufacturing, and ground equipment and 
devices-like the chips in our smartphone that enable 
navigation-produce annual revenues in the tens to hundreds of 
billions of dollars.
    Congress and government policies, as well, have supported 
the development of a commercial space industry by setting 
frameworks for regulating segments of the industry. This 
Committee's Commercial Space Launch Act of 1984 laid the 
initial regulatory framework to enable the emergence of a 
commercial space launch industry, for example. Other 
legislation provided a pathway for commercial remote sensing 
licensing.
    Today, the commercial space industry is evolving. With 
these changes have come innovative technologies and operations 
and potential new services and capabilities that are infusing 
energyinto the commercial space industry. Private investors, 
venture capital, and other forms of investment are also 
expressing interest in the industry. According to one source, 
total investment in start-up space companies was at a record 
$3.2 billion in 2018, up from about $2.5 billion in 2017. We're 
on the precipice of what could be a ground-breaking shift in 
the technologies and services that affect our daily lives 
whether through new broadband communications services or 
information products derived from Earth remote sensing imagery.
    I'm excited about the future of commercial space, and I 
want the United States commercial space industry to succeed and 
to lead. To ensure continued success, it's important that we, 
as the Subcommittee with jurisdiction over commercial space, 
have a clear view of where the industry is headed; the 
opportunities and challenges facing it; where and how the 
government intersects with commercial space; and what questions 
need to be answered as we carry out oversight of the government 
as a user and enabler of commercial space activities.
    So before we delve into any one issue, activity, or segment 
of the industry, we're starting with an overview of commercial 
space. In short, today's hearing is intended to be a commercial 
space 101 that will guide us in prioritizing the key issues and 
areas to examine as we look forward to subsequent hearings on 
commercial space during the 116th Congress. We've included a 
variety of voices on the panel, including those representing 
the breadth and diversity of the industry, and I look forward 
to their input today.
    Thank you.

    Chairwoman Horn. Thank you, and the Chair now recognizes 
Ranking Member Babin for his opening statement.
    Mr. Babin. Thank you, Madam Chair, I appreciate it, and I 
want to say welcome, and thank you, to all our expert 
witnesses. Our nation's history in space has always featured 
partnerships with industry, from MacDonald Aircraft Corporation 
building the Mercury and the Gemini capsules, to Grumman 
building the Lunar Excursion Module for Apollo, or the United 
Space Alliance operating the Space Shuttle fleet, contractors 
and private sector have worked hand in hand with NASA (National 
Aeronautics and Space Administration) since the dawn of the 
space age. The future will be no different. In order to ensure 
that our Nation, government, military, industrial base, and 
society will continue to benefit from the unique opportunities 
that space affords, we must carefully craft a framework for the 
future, and that's why I was very pleased to see the 
Administration put forward Space Policy Directives (SPDs) 1, 2, 
and 3. SPD 1 directed NASA to lead an innovative and 
sustainable program of exploration with commercial and 
international partners to enable human expansion across the 
Solar System, and to bring back to Earth new knowledge and 
opportunities. I applaud this goal.
    Space exploration will require collaboration with the 
private sector, just as it did 50 years ago, when Apollo 11 
first landed on the Moon. As we chart a new course, NASA must 
find the right balance of how it procures hardware and 
services. If done correctly, NASA can leverage private sector 
investments to enable national exploration goals. If done 
poorly, public-private partnerships could end up simply as 
corporate welfare. We must carefully guard against subjecting 
our civil space enterprise to the uncertainty of the 
marketplace. To paraphrase a former Secretary of the Treasury, 
and Director of the National Economic Council, ``the government 
is a poor venture capitalist.'' We must ensure that any 
cooperation is based on sound market projections, and that the 
private sector truly has skin in the game.
    Turning to the other space policy directives related to 
commercial space, SPDs 2 and 3 directed agencies to streamline 
the regulation of private sector space activities, and provide 
better space situational awareness to space operators. In 
response to these directives, agencies are working to craft 
rules to cut red tape, while also providing certainty to the 
market, and meeting our domestic and international obligations. 
Despite the best intentions of the Administration, the first 
attempts by the Department of Transportation, the Department of 
Commerce, and the Federal Communications Commission (FCC) all 
seem to fall short, but this is not surprising. Regulatory path 
is fraught with uncertainty, beholden to the whims of unelected 
bureaucracies, and unresponsive to the needs of a rapidly 
innovating field. But there are a multitude of other constructs 
that can satisfy our obligations without stifling innovation, 
or smothering the embers of creativity. Standard-setting 
bodies, self-regulating organizations, carefully crafted 
public-private partnerships, and many other solutions should 
all be on the table.
    How we craft space regulations is imperative to our future 
in space. Other states stand willing to challenge U.S. 
leadership in space through regulatory competition. In a global 
environment, individuals and companies are free to shop for the 
most attractive environment to claim as home. The implications 
of this choice go far beyond national pride. When space 
operators associate themselves with a particular nation, they 
bring jobs, economic growth, and tax revenue. They attract the 
best and brightest entrepreneurs, scientists, engineers, and 
technicians, and they create an incubator for future success. 
We cannot afford to scare these folks away to other nations, 
that will gladly provide a flag of convenience for them.
    Aside from the established commercial space industries like 
communications, launch, and remote sensing, we must also 
consider new and unique activities, such as space to space 
remote sensing, commercial space-based signal collection, space 
resource utilization, satellite servicing, and commercial 
habitat services, amongst many others. None of these activities 
were seriously envisioned 50 years ago, and so it stands to 
reason that we have no idea what the next 50 years will have in 
store for us. And how we structure partnerships between our 
civil and commercial space sector, and how we will regulate our 
private-sector activities, is one of the fundamental space 
policy questions of our time. Whether or not our system of 
values will be carried by the future pioneers of outer space 
will very likely hinge on the degree to which America is able 
to unleash the awesome power of freedom, liberty, and protect 
against government overreach. I, for one, want to see the 
future of humanity in outer space guided by the principles of 
our great Nation.
    The commercial space sector holds great promise, and I look 
forward to working with my colleagues to make sure that the 
commercial space policies, laws, and regulations that we adopt 
in the future will enable accomplishments just as amazing as 
those that we celebrated just last week. And I yield back.
    [The prepared statement of Mr. Babin follows:]

    Our nation's history in space has always featured 
partnerships with industry. From McDonnell Aircraft Corporation 
building the Mercury and Gemini capsules, to Grumman building 
the Lunar Excursion Module for Apollo, or the United Space 
Alliance operating the Space Shuttle fleet, contractors and the 
private sector have worked hand-in-hand with NASA since the 
dawn of the space age. The future will be no different. In 
order to ensure that our nation, government, military, 
industrial base, and society will continue to benefit from the 
unique opportunities that space affords, we must carefully 
craft a framework for the future.
    That is why I was pleased to see the Administration put 
forward Space Policy Directives (SPD) 1, 2, and 3. SPD-1 
directed NASA to ``lead an innovative and sustainable program 
of exploration with commercial and international partners to 
enable human expansion across the solar system and to bring 
back to Earth new knowledge and opportunities.'' I applaud this 
goal. Space exploration will require collaboration with the 
private sector just as it did 50 years ago when Apollo 11 first 
landed on the Moon. As we chart a new course, NASA must find 
the right balance for how it procures hardware and services.
    If done correctly, NASA can leverage private sector 
investments to enable national exploration goals. If done 
poorly, public-private partnerships could end up simply as 
corporate welfare. We must carefully guard against subjecting 
our civil space enterprise to the uncertainty of markets.
    To paraphrase a former Secretary of the Treasury and 
Director of the National Economic Council, the government is a 
poor venture capitalist. We must ensure that any cooperation is 
based on sound market projections, and that the private sector 
truly has ``skin in the game.''
    Turning to the other Space Policy Directives related to 
commercial space, SPD 2 and 3 directed agencies to streamline 
the regulation of private sector space activities, and provide 
better space situational awareness to space operators. In 
response to these directives, agencies are working to craft 
rules to cut red-tape while also providing certainty to the 
market and meeting our domestic and international obligations. 
Despite the best intentions of theAdministration, the first 
attempts by the Department of Transportation, the Department of 
Commerce, and the Federal Communication Commission all seem to 
fall short.
    This is not surprising. The regulatory path is fraught with 
uncertainty, beholden to the whims of unelected bureaucracies, 
and unresponsive to the needs of a rapidly innovating field. 
But there are a multitude of other constructs that can satisfy 
our obligations without stifling innovation or smothering the 
embers of creativity. Standards-setting bodies, self-regulating 
organizations, carefully crafted public-private partnerships, 
and many other solutions should all be on the table.
    How we craft space regulations is imperative to our future 
in space. Other states stand willing to challenge U.S. 
leadership in space through regulatory competition. In a global 
environment, individuals and companies are free to shop for the 
most attractive environment to claim as ``home.'' The 
implications of this choice go far beyond national pride. When 
space operators associate themselves with a particular nation, 
they bring jobs, economic growth, and tax revenue. They attract 
the best and brightest entrepreneurs, scientists, engineers, 
and technicians, and create an incubator for future success. We 
cannot afford to scare these folks away to other nations that 
will gladly provide a flag of convenience.
    Aside from the established commercial space industries like 
communications, launch, and remote sensing, we must also 
consider new and unique activities such as space-to-space 
remote sensing, commercial space-based signals collection, 
space resource utilization, satellite servicing, and commercial 
habitat services, amongst others. None of these activities were 
seriously envisioned 50 years ago, so it stands to reason that 
we have no idea what the next 50 years will have in store.
    How we structure partnerships between our civil and 
commercial space sector, and how will regulate our private 
sector activities is one of the fundamental space policy 
questions of our time. Whether or not our system of values will 
be carried by the future pioneers of outer space will likely 
hinge on the degree to which America is able to unleash the 
awesome power of freedom and protect against government 
overreach. I for one want to see the future of humanity in 
outer space guided by the principles of our great nation. The 
commercial space sector holds great promise. I look forward to 
working with my colleagues to make sure the commercial space 
policies, laws, and regulations we adopt in the future enable 
accomplishments just as amazing as those we celebrated last 
week.

    Chairwoman Horn. If there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    [The prepared statement of Chairwoman Johnson follows:]

    Good afternoon, and thank you Chairwoman Horn for holding 
this hearing on the "Commercial Space Landscape." I also want 
to welcome our witnesses. It's good to have you here and we 
appreciate your participation.
    Since the 1980s, this Committee has been at the forefront 
of guiding the evolution of the commercial space industry. The 
legislation it has put forward--and had enacted into law--has 
been instrumental in providing the framework for what are now 
robust and growing commercial space launch and space-based 
remote sensing industries.
    NASA Authorization Acts that this Committee has led have 
encouraged and authorized government-commercial activities, 
including the commercial resupply services that deliver cargo 
and supplies to the International Space Station. In addition, 
many of our government R&D investments have translated into 
commercial opportunities. This is one of many positive outcomes 
of our taxpayers' investments.
    In short, I strongly support the future growth and success 
of the United States commercial space industry. I also want 
this Committee to continue to be on the cutting-edge of 
enabling commercial space and providing carefully considered 
policy guidance to support it. In the waning hours of the last 
Congress, there were attempts to pass commercial space 
legislation. That was a rushed effort and not the optimal way 
to legislate on such important matters as the future of 
commercial space. We need to get it right.
    So I am pleased, Madame Chair, that you are holding this 
overview hearing, because a lot is changing and we need to be 
fully informed before developing policy. The Administration is 
proposing new regulations for commercial space launch and 
reentry, and also for commercial space-based remote sensing. We 
need to understand those changes and any implications of them. 
We also need to understand the government's role in commercial 
space, the appropriate ways in which the government can 
leverage commercial capabilities, and any associated risks to 
the taxpayer.
    In closing, I want to commend our commercial space 
companies that are making such impressive progress. There's not 
a week that goes by without reading about a significant 
milestone in a commercial program, the deployment of a new 
capability in space, or an innovative plan that is attracting 
commercial investment.
    Well, it's clear there is a lot to discuss today, and I 
look forward to our witnesses' testimony. Thank you, and I 
yield back.

    Chairwoman Horn. Thank you very much, Ranking Member, 
excuse me, and welcome, again, everyone. I will now introduce 
our distinguished panel of witnesses, beginning Dr. Bhavya Lal. 
Dr. Lal is a research staff member at the Institute for Defense 
Analysis, Science, and Technology Policy Institute. There Dr. 
Lal leads strategy, technology assessment, and policy studies, 
and analysis for Federal space-oriented agencies. Dr. Lal 
regularly serves on the National Academy of Science committees, 
and is currently serving on the NOAA (National Oceanic and 
Atmospheric Administration) Advisory Committee on Commercial 
Remote Sensing. Dr. Lal holds a bachelor's degree and master's 
degree in nuclear engineering from MIT, and a master's degree 
from MIT's Technology and Policy Program, and a doctoral degree 
in Public Policy and Public Administration from George 
Washington University. Welcome, Dr. Lal.
    Our next witness is Carissa Christensen. Ms. Christensen is 
the founder and CEO of Bryce Space and Technology, an analytics 
and engineering firm with expertise in space, cyber, and 
advanced R&D. She sits on the board of the Aerospace Center for 
Space Policy and Strategy, and serves on the National Research 
Council's Space Technology Industry-Government-University 
Roundtable advisory group to NASA. That is a mouthful. Ms. 
Christensen holds a Public Policy Degree from Harvard 
University. She also completed the general course in government 
at the London School of Economics, and was a Douglas Scholar at 
Rutgers University. Welcome, Ms. Christensen.
    Our next witness is Mr. Eric Stallmer. Mr. Stallmer is the 
President of the Commercial Space Flight Federation (CSF), a 
trade organization dedicated to promoting the development of 
commercial space flight. He was recently appointed to the 
National Space Council User Advisory Group. Before working at 
CSF, Mr. Stallmer served as the Vice President of Government 
Relations at Analytical Graphics, Inc., and Mr. Stallmer has a 
bachelor's degree in political science and history from Mount 
Saint Mary College, and a master's degree in public 
administration from George Mason University. Welcome, Mr. 
Stallmer.
    Our next witness is Mr. Mike French. Mr. French is the Vice 
President for Space Systems at the Aerospace Industries 
Association, or AIA, a trade association representing 
manufacturers and suppliers of the U.S. aerospace industry. He 
previously served as the Senior Vice President for Commercial 
Space at Bryce Space and Technology. Mr. French held several 
Federal Government positions, most recently serving as NASA's 
Chief of Staff, where he received NASA's Distinguished Service 
Medal for his service. Mr. French holds a bachelor of science 
in business administration from the University of California 
Berkeley, and a juris doctorate from Harvard Law School. 
Welcome, Mr. French.
    And our final witness today is Ms. Laura Montgomery. Ms. 
Montgomery teaches space law at Catholic University Columbus 
School of Law. She also writes and edits the law blog, Ground 
Based Space Matters. Previously Ms. Montgomery spent over 2 
decades with the Federal Aviation Administration (FAA), serving 
as the manager of the Space Law Branch in the Office of Chief 
Counsel and as the FAA's Senior Attorney for Commercial Space 
Transportation. Ms. Montgomery received her bachelor degree 
from the University of Virginia, and her law degree at the 
University of Pennsylvania. Welcome, Ms. Montgomery.
    And before we begin our testimony and questions, I will 
take a moment to introduce a letter that has been submitted for 
the record, we'll submit it into the record at this time, from 
the Coalition for Deep Space Exploration on the NPR, the Notice 
of Proposed Rulemaking. And we'll submit that to the record at 
this time.
    And now, as our witnesses, you should know you will each 
have 5 minutes for your spoken testimony. Your written 
testimony, of course, will be added into the record, and can be 
more expansive, for the hearing. And when you have completed 
your spoken testimony, we'll begin with questions. Each Member 
will have 5 minutes to question the panel, and we will go in 
the same order of introduction, so we'll start with Dr. Lal. 
Dr. Lal, you're recognized for 5 minutes.

                  TESTIMONY OF DR. BHAVYA LAL,

             RESEARCH STAFF MEMBER, IDA SCIENCE AND

                   TECHNOLOGY POLICY INSTITUTE

    Dr. Lal. Madam Chair, Ranking Member Babin, and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to testify today. In my remarks, I would like to 
address three questions. First, what is commercial space? 
Second, what benefits does it bring? And third, how can the 
government best leverage commercial space?
    So what's commercial space? The term is used loosely, and 
generally brought up in three different contexts. Some people 
use it to describe commercial companies that are often, but not 
always, startups. These companies put angel, or venture 
funding, or their own resources, at risk to build space 
systems. For others it refers to commercial approaches, which 
are often fixed-price, milestone-based contracts typically used 
in our market-based economy, but much less so by space 
agencies. Yet others refer to it in the context of firms having 
primarily private customers, or customers other than the U.S. 
Government. Thus, in using the term commercial space, most 
people are alluding either to innovative startups, 
nontraditional contracting mechanisms, or non-governmental 
customers.
    The second question is, what benefit does commercial space 
bring? Commercial style contracts, such as the one mentioned 
above, as well as private investors with skin in the game, as 
Representative Babin said, incentivize two kinds of behaviors, 
rapid development, and a focus on cost reduction. As a result, 
the most important benefit commercial space brings is lower 
cost, although at times this is at the expense of performance 
and reliability. Given the potential for cost savings, 
commercial approaches are not just being considered in the 
launch sector, where cost savings have been well documented, 
but also in other sectors that actually used to be considered 
the sole province of the government. Examples include SSA, or 
space situational awareness, space nuclear power, on-orbit 
servicing, assembly, and manufacturing, and even deep space 
science.
    Commercial space has brought more than cost savings into 
the space sector. In some cases, commercial capabilities have 
surpassed, or are entirely complementary to government ones. 
Commercial companies have leveraged innovations such as 
miniaturization, satellite mass production, and use of 
commercial off-the-shelf (COTS) components to produce capable, 
lightweight satellites. These satellites can be simultaneously 
deployed, meaning that many hundreds can be launched and 
operated, and provide 'round-the-clock simultaneous multi-point 
imagery of any place on Earth, or in space, for scientific 
national security and commercial purposes. This coverage is 
obviously impractical with traditional satellites.
    My last point on this question is that, despite the high 
levels of innovation and cost-effectiveness, if you draw the 
system boundaries around space-based activities, the principle 
customers of commercial space today, and in the near term, are 
governments, not private, and there are only a handful of 
exceptions, such as satellite communication and satellite TV, 
that are paid for by private entities. Lack of demand in the 
private sector constrains robust development and growth in the 
commercial space sector.
    The final question is, how can the government best leverage 
commercial space? Our research has shown that government 
purchases of products and services from commercial companies, 
or using commercial approaches, has the twin benefit of 
reducing cost, accelerating the development of many government 
space programs, as well as fostering the growth of the space 
sector, and promoting the industrialization of space. In light 
of potential government benefits and commercial needs, we have 
two recommendations. First, at a conceptual level, space 
agencies should design mission plans and architectures that are 
sufficiently flexible, such that when commercial capabilities 
reach adequate readiness levels, they can be incorporated in 
these missions and architectures. For example, several 
companies are exploring water extraction systems on the Moon, 
and other companies are investing in technologies and systems 
related to space-based propellant depots and tugs in low-Earth 
orbit (LEO). NASA should have architectures in place so, when 
these capabilities are commercially available, the government 
can quickly transition their operations to exploit them.
    Second, and more concretely, space agencies should 
consider, as a norm, rather than as an exception, fixed-price, 
milestone-based contracts when purchasing space goods and 
services. In some cases, a cost-plus contract is necessary and 
appropriate, for example, for certain high-risk developmental 
items. But more often than not fixed-price contracts suffice, 
and allow companies to propose their own innovative solutions. 
The overarching question, therefore, when considering 
commercial solutions that must be asked is, would we consider 
accepting, in cases where it makes sense, an 80 percent 
solution at half the cost, and double the speed? I'd be happy 
to expand on any of these points. Thank you for your time.
    [The prepared statement of Dr. Lal follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Horn. Thank you, Dr. Lal. Ms. Christensen?

                TESTIMONY OF CARISSA CHRISTENSEN,

                    CHIEF EXECUTIVE OFFICER,

                   BRYCE SPACE AND TECHNOLOGY

    Ms. Christensen. Chairwoman Horn, Ranking Member Babin, and 
distinguished Members of the Subcommittee, thank you for 
inviting me here to discuss the commercial space landscape. 
I've provided independent analysis of space activities for more 
than 3 decades, and I've built my career and my business on the 
principle that evidence-based objectivity and rigor are 
critical to effective decisionmaking, and I'm pleased to share 
my analysis with the Committee. Today I'll talk about three 
elements of commercial space activities: The current commercial 
space economy, recent investment in emerging space ventures, 
and the important implications of this innovation for 
government.
    The commercial space economy has existed for decades, 
dominated by well-established satellite operators providing 
television, Internet, and many other services. Launch and 
satellite manufacturing enabled those services. Considering key 
industry sectors, as well as government space budgets, the 
value of the global space economy is about $360 billion. A 
quarter of that is government space budgets, and half of that 
is the U.S. The remaining global space economy, more than $275 
billion in 2018, is dominated by revenues from satellite 
services and related products. Two large markets, direct to 
home satellite television and location and mapping based on the 
U.S. Global Positioning System and other navigation satellites, 
are by far the biggest contributors to total industry revenue 
at about $100 billion each. Satellite service revenues overall 
have been growing at about the rate as the global economy, 
roughly 2 to 3 percent. The outlook for established services is 
fairly stable. I'll talk in a moment about innovative satellite 
startups. In general my expectation is that those startups will 
tend to augment, rather than replace, current capabilities.
    Looking toward the future, emerging space businesses seek 
to expand the commercial landscape. Today we're seeing 
unprecedented numbers of new space businesses, enabled by three 
factors. In particular: Very small satellites, new markets, 
from satellite services to in orbit activities, and new 
investors. Billionaire super-angel investors and venture 
capital firms have invested between $2 and $3 billion a year 
since 2015 in emerging space ventures, with the majority 
invested in U.S. companies. While a few companies, SpaceX, Blue 
Origin, and OneWeb, account for a substantial portion of this 
investment, it has resulted in more than 250 new space firms. 
Venture investment is relatively new to the space industry. 
These investors bring risk tolerance that allows ventures to 
pursue unproven business plans in riskier markets. Generally, 
more than three-quarters of venture-funded firms fail. 
Regardless of the success or failure, I want to note that 
capital being directed to technology and capability development 
today may result in valuable outcomes for the government and 
industry. Looking at these new businesses, they include 
broadband satellite service providers, launch companies, 
companies seeking to operate in low-Earth orbit, and many 
others.
    New companies in low-Earth orbit seek to offer a variety of 
services, including manufacturing, transportation, and so on. 
Based on today's demand signals, these businesses have a 
limited customer base. The most promising markets are human 
accommodations, especially for government astronauts, and on-
orbit servicing, assembly, and manufacturing. The exploration 
activities of the U.S. Government and its partners will have a 
significant effect on most LEO businesses. These new firms 
create both opportunities and challenges for the government. 
The government is a longstanding customer of commercial space 
capabilities, and helps facilitate today's commercial space 
markets. The government has an opportunity to leverage emerging 
commercial space companies to help it do more, and spend less. 
However, the price of leveraging this investor-funded dynamic 
innovation is uncertainty. The government must carefully 
consider how to take best advantage of this opportunity, while 
assuring long-term access to mission-critical services.
    I appreciate the opportunity to share my analysis and 
findings, and I very much look forward to your questions.
    [The prepared statement of Ms. Christensen follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Horn. Thank you, Ms. Christensen. Mr. Stallmer?

                 TESTIMONY OF ERIC W. STALLMER,

          PRESIDENT, COMMERCIAL SPACEFLIGHT FEDERATION

    Mr. Stallmer. Chairwoman Horn, Ranking Member Babin, and 
distinguished Members of the Subcommittee, thank you for 
inviting the Commercial Space Flight Federation back to discuss 
the progress of the U.S. commercial space industry. From the 
Commercial Space Launch Act of 1984 through today, this 
Committee has steadfastly supported the unleashing of American 
free enterprise to develop the economic opportunities of space. 
Every major commercial space policy law was born here, in this 
room, and we hope you understand how vital the bipartisanship 
work that this Committee, and the House, has been to our 
industry's growing success.
    The United States is undergoing a Renaissance in space led 
by commercial enterprise. Since 2009, investors have supported 
over 476 private space companies, with over $22 billion in 
private capital. In my written statement, I outlined several of 
the commercial space industry's recent major milestones, which 
sets the stage for even greater accomplishments. As NASA 
continues to drive the frontier onward with groundbreaking 
research, the commercial sector is making space affordable and 
accessible. We are in the defining moments of a new era of 
space exploration and development, and it's critical that we 
work together to improve our policy environment to ensure 
continued U.S. leadership in space.
    Accordingly, I offer the following recommendations. We need 
to streamline our Federal regulations. We compliment the FAA 
for getting the proposed rule out fairly, delayed only by the 
government shutdown. Fairly quickly, I should say. 
Unfortunately, instead of one giant leap forward, the FAA seems 
to have taken only a cautious half step toward regulatory 
regime needed by the growing and diverse new space 
transportation providers and their many users. The 580-page 
NPRM, plus over 1,000 pages of supporting documents, is very 
complex, and frequently confusing. Its preamble cites many of 
the right goals, but the proposed regulations do not deliver on 
them. Most current or prospective FAA space licensees have 
determined that the NPRM, in some ways, are worse than today's 
obsolete rules.
    The NPRM is not adequately performance-based, like it was 
intended. It adds new burdens and cost, it's confusing, and 
relies on missing documents. It lacks the flexibility to allow 
for innovation. It's anti-competitive in many ways, creating 
new burdens to entry for users. And it attempts to fix things 
that were not broken, and add even more burden to the users. 
That is why all the license applicants in the Commercial Space 
Flight Federation, including our largest spaceports, plus 
several other entrepreneurial companies, all want DOT 
(Department of Transportation) and FAA, using the--all the--
using the many available mechanisms for active industry 
interaction, to develop and publish a supplemental Notice of 
Proposed Rulemaking. We appreciate the Administration's 
eagerness to reform the FAA's obsolete rules, but we really 
need to get this right. The companies that are growing, 
innovating, and improving America's access to space are 
requesting major revisions to this NPRM. So that--the FAA must 
take the time to engage with everyone, including the newest 
members of our industry, so the agency can craft rules for the 
future.
    We also must expand on NASA's use of COTS-like partnerships 
with the commercial industry for human exploration. By even 
most conservative analysis, the COTS commercial cargo public-
private partnership saved NASA hundreds of millions of dollars. 
Why? Commercial space is underpinned by pay-for-performance, 
fixed-price contracts, agile and creative development teams, 
greater flexibility and risk tolerance, private capital 
investment, and more and more intensive innovation.
    This is not CSF's opinion, but the conclusion of numerous 
independent reviews of program. For example, in 2014 a report 
praised the COTS ISS (International Space Station) cargo 
public-private partnership, and I quote, ``because these were 
partnerships, not traditional contracts. NASA leveraged its 
$800 million COTS budget with partner funds. This resulted in 
two new U.S. medium-class launch vehicles, and two automated 
cargo spacecraft, and demonstrated the efficiency of such 
partnerships.'' A 2017 cost analysis review was more direct. 
The COTS development, and later operation commercial resupply 
services, are significant advances in affordability by any 
measure. Simply put, this approach works.
    Last week we celebrated the historic achievements of our 
Nation a half century ago as we came together for a common goal 
in space, and it's right, and it's natural, to honor our past, 
but we should also be proud and excitement about the 
advancements we are achieving today, and what we can accomplish 
together tomorrow if we build a true partnership between 
government, including Congress, and the American people and 
their enterprise.
    Chairwoman Horn, Ranking Member Babin, thank you for your 
invitation and attention. I look forward to your questions.
    [The prepared statement of Mr. Stallmer follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Horn. Thank you, Mr. Stallmer. Mr. French?

                    TESTIMONY OF MIKE FRENCH,

                 VICE PRESIDENT, SPACE SYSTEMS,

                AEROSPACE INDUSTRIES ASSOCIATION

    Mr. French. Chairwoman Horn, Ranking Member Babin, and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to testify today. The Aerospace Industries 
Association (AIA) represents nearly 340 companies at the heart 
of the American economy. The aerospace industry generates 
nearly $930 billion in economic output, and nearly $90 billion 
in trade surplus, the largest of any U.S. sector. Our industry 
is supported by more than 2.5 million American workers, and our 
members have partnered with NASA since its beginning. But today 
our eyes are firmly fixed on the future. This year AIA released 
a report entitled, ``What's Next for Aerospace and Defense: A 
Vision for 2050.'' This report paints a picture of the 
innovations that will drive the way we move, connect, explore, 
and defend our interests 30 years from now, and many of these 
technologies will depend on an effective partnership between 
government and the commercial space industry.
    As Dr. Lal said, there's been much discussion about 
commercial space, but the term is often inconsistently applied. 
The commercial space industry is not a new phenomenon. It is 
part of a $360 billion economy that's existed for decades. 
Commercial space companies range from established, publicly 
traded companies, to large private companies, to startups that 
are still developing their business plans. For example, NASA's 
commercial crew and cargo partners are the Boeing Corporation, 
Northrup Grumman, Sierra Nevada Corporation, and SpaceX. In an 
important trend, these large public space companies are now 
among the most active venture capital investors in space 
startups.
    In deciding how to partner with this diverse set of actors, 
government has a variety of different tools and approaches it 
can use, depending on where the market is. For example, NASA 
took a new approach in the commercial cargo and crew programs, 
creating what I'll call a public investment, private service, 
or PIPS model. Under PIPS, NASA subsidized the creation of 
commercial service by being the primary customer, while 
requiring investment from its commercial partners. NASA 
determined the PIPS model was viable for commercial cargo and 
crew because of the existence of the multibillion-dollar 
commercial launch industry.
    Over the last few weeks, NASA announced its intent to use 
the PIPS model for the Artemis Program's human lunar lander. 
This is a new extension of the model, and it presents three 
primary risks that I wanted to raise with you today. First, 
there's no established market offering for this--for NASA to 
buy here. The capability of landing humans on the Moon will 
require a great deal of development before it can be provided 
to NASA as a service. Second, requiring companies to invest 
internal funds in a nascent market may prevent firms that 
otherwise are highly capable, especially small and mid-sized 
firms, from being able to compete. Third, purchasing services 
will require a clear outline of government versus industry 
responsibilities, as was required in the cargo and crew 
programs, but this would be more complex, as this will take 
place within an entirely new program operating deeper in space. 
These risks will require NASA to make a robust assessment of 
where the proposals it receives meet technical and schedule 
requirements, and limit default. It also requires NASA to 
clearly delineate these government/industry responsibilities, 
which may require NASA to change its approach in some areas. We 
urge NASA to consider industry's feedback to help mitigate 
these risks as it proceeds.
    Moving forward, Congress can provide direction on these 
approaches as it considers NASA's next authorization and 
appropriation bills. Of course, Congress' actions are not 
limited to procurement policy. One essential component to 
commercial growth worth noting is reliable, interference-free 
spectrum. A viable commercial space landscape requires a 
comprehensive approach to our Nation's future spectrum policy 
that ensures adequate and globally harmonized spectrum. As 
government looks to meet its future space requirements, 
Congress should continue to be an active ally to commercial 
space, whether through passing a multi-year NASA authorization, 
ensuring we have the most talented workforce, or deciding the 
best procurement strategies. Regardless, the commercial space 
industry is primed to partner with government and meet the next 
set of space challenges, from the continued support of U.S. 
national security space to returning to the Moon, and on to 
Mars. I thank you very much.
    [The prepared statement of Mr. French follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Horn. Thank you, Mr. French. Ms. Montgomery?

                 TESTIMONY OF LAURA MONTGOMERY,

             PROPRIETOR, GROUND BASED SPACE MATTERS,

   AND PROFESSOR, CATHOLIC UNIVERSITY'S COLUMBUS SCHOOL OF LAW

    Ms. Montgomery. Thank you. Chairwoman Horn, Ranking Member 
Babin, and distinguished Members of the Subcommittee, thank you 
for inviting me to participate today. Three regulatory agencies 
oversee U.S. commercial space activities. The FAA authorizes 
and regulates commercial space transportation, launch, and re-
entry, but does not have authority on orbit. The FCC oversees 
communication satellites, and NOAA regulates remote sensing 
satellites. In response to Administration calls for 
streamlining, the three agencies have issued Notices of 
Proposed Rulemaking to fix their regulations. They have made 
good attempts, but the FAA and FCC have also taken the 
opportunity to impose new regulations, not all of which are 
clearly within the authority granted to them by Congress.
    The FAA, for one, proposes to ask payload operators, whom 
Congress neither told it to license nor regulate, whether they 
encrypt their transmissions. But is this request for 
information actually a disguised requirement? Although Congress 
has given the FAA some authority over payloads, in that the FAA 
may stop a launch for payload concerns, Congress has otherwise 
been clear that it has not provided the FAA the authority to 
regulate payloads.
    The FCC also issued an NPRM to modify its orbital debris 
regulations. In stark contrast to Congress' financial risk 
approach for space transportation, the FCC proposes that 
satellite operators indemnify the U.S. Government against 
damage claims. If Congress has not said that the satellite 
industry must protect the U.S. Government, one might ask, 
first, how the FCC thinks it has the authority to do so, and 
second, why it has chosen a different path for a related space 
industry? Because it is the legislative branch, Congress has 
the ability to choose a different path for satellites. The FCC 
does not.
    There are three controversial provisions of the Outer Space 
Treaty that Congress could interpret in favor of incentivizing 
private commerce. It is my own view that interpretations that 
incentivize are the right ones. The first involves the 
regulation of private entities in space. Article 6 of the 
treaty says that the activities of non-governmental entities in 
outer space shall require authorization and continuing 
supervision by the appropriate state party. The FAA has 
indicated that it may deny a private entity access to space if 
the private entity's activities are not federally regulated.
    This part of the treaty is not, however, self-executing, 
which means that it does not create an obligation on the 
private sector until Congress says so by passing legislation. 
The treaty does not say that either all or any particular 
activity must be authorized, which leaves decisions regarding 
what activities require regulation to the member states. And, 
in the United States, those decisions are up to Congress, not 
the FAA. The FAA's position ignores the Supreme Court in 
Medellin vs. Texas, where the Court held that not even the 
president could enforce a non-self-executing treaty. The FAA 
should thus not claim the power to use the treaty to deny a 
non-governmental entity access to space.
    Next come property rights. The treaty bars national 
appropriation in outer space. This creates legal uncertainty 
for the private sector. For U.S. companies, Congress resolved 
half the uncertainty by recognizing private claims to extracted 
resources back in 2015. Property rights in land are less 
certain. Many interpret the Outer Space Treaties as barriers to 
private property under different theories. A careful reading, 
however, shows that contrary theories may better reflect what 
the treaties actually say.
    Finally, the Outer Space Treaty admonishes states parties 
to avoid harmful contamination of outer space. There are two 
questions at issue here. First, does the admonition apply to 
non-governmental entities? Does the treaty--and second, does 
the treaty's harmful contamination mean the same thing as 
NASA's planetary protection policy, under which spacecraft 
undergo expensive sterilization procedures? First, the treaty 
limits this requirement, like many others, to States' parties 
to governments and their emissions. When the drafters of the 
treaty intended a requirement to not--apply to non-governmental 
entities, they said so. Here they did not. Next, although the 
treaty warns against harmful contamination, NASA's planetary 
protection policy would avoid almost all contamination in order 
to preserve its ability to study other worlds in their natural 
states. NASA thus not only avoids what the ordinary person 
might consider harmful, but microbial contamination as well. 
NASA is being a good science steward, but it is a NASA policy, 
and not the law.
    Thank you for the opportunity to contribute today.
    [The prepared statement of Ms. Montgomery follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Horn. Thank you, Ms. Montgomery, and thank you 
to all of our witnesses. We will now begin with questions, and 
I recognize myself for 5 minutes.
    This is clearly an important issue. There are many 
questions that we need to answer, and, to all of the panelists, 
thank you for being here. Your testimonies have raised a number 
of important issues, including streamlining regulations, 
understanding the uncertainties and risks, and considering 
contracting and procurement options, the role of innovation, 
emerging markets and services, and we could go on. And one of 
the purposes of this hearing today is stage-setting, to 
identify the types of challenges and opportunities that we need 
to tackle as the space industry moves into really a new 
generation. And it's important that we have full insight into 
what these issues are to delve deeper.
    So, as we want the industry to succeed, and we want to get 
it right from the regulatory, and from our role as an oversight 
committee, I'd like to hear from all of witnesses, very 
briefly, your top two priorities unto what the Subcommittee 
looks at to delving further into the commercial space 
activities and issues. So I'll just start, and we'll go down. 
Dr. Lal?
    Dr. Lal. Sure. I would say that the top two priorities 
ought to be looking at alternative mechanisms of contracting 
with commercial entities--many small companies, startups, do 
not have the ability to have the background for the kind of 
contract that are traditionally used--and the second one is to 
understand that there may not be, at least in the near term, 
private markets, and therefore there is more supported needed 
from the government to support emerging commercial companies.
    Ms. Christensen. I would say, first, working with startup 
and early stage companies in an effective way, and finding a 
path to manage the business uncertainty they face with the 
technology and capability innovation that they bring to the 
table that the government can generate value from, and second, 
more broadly, thinking about leveraging the commercial 
investment that we see today across space markets.
    Mr. Stallmer. I think in the near term the most challenging 
regulatory hurdle we have in front of us right now is this 
NPRM, as we're looking at how the launch industry is regulated, 
and the effort to streamline this. The current rule, as it's 
proposed, it really causes a lot of barriers to the innovative 
companies that are entering the launch market. When you look at 
the global space economy, launch is only a small part of it, 
but really is a critical part to enable the success of this 
whole great commercial--global space marketplace. And I'd also 
agree with Dr. Lal on the contracting mechanisms, and how we 
procure services. I look to the model of the commercial off the 
shelf products--or--with the COTS regime that we've used in the 
past, leveraging the private sector with that type of 
investment, and--having--both parties have skin in the game. I 
think that's really critical.
    Mr. French. The first one I would have is the Committee 
looking at a multi-year NASA authorization, and through that, 
being able to provide guidance on many of these issues, 
including the purpose and mission that NASA should have between 
its national programs and the purchase of services. I'd say a 
second one would be, as I mentioned in my oral testimony, 
spectrum. I mean, spectrum is the invisible nervous system of 
space, and without it we can't talk to our satellites, and they 
can't talk back to us. Thank you.
    Ms. Montgomery. Looking at it from a legal perspective, I 
think my interests and priorities would be more long term, in 
terms of encouraging investment, and regulatory certainty going 
forward, for the private community. And in that regard, I would 
strongly recommend that Congress set to rest concerns that the 
executive branch has the ability to usurp Congress's 
legislative role by denying private actors access to space 
under Article 6 of the treaty. The second one I would strongly 
urge you all to consider is setting forth some sort of criteria 
by which we would be able to recognize private actors' ability 
to own land on celestial bodies, whether through principles of 
adverse possession, or otherwise. I think it is something that 
Congress wants to take into account for long-term purposes.
    Chairwoman Horn. Thank you all. So, with the little time we 
have left, Ms. Christensen, I want to focus on a piece of your 
testimony. You noted that the price of leveraging investor-
funded dynamic innovation is uncertainty. And, in terms of the 
government's mission--and, Mr. French, you also commented on 
the need for a detailed assessment, and clear pre-defined 
determination of government versus industry responsibilities. 
And, in considering public investment, and the private service 
model for procurement for government missions and certain 
elements, especially those that might involve human safety, 
what are the guard rails that we can put in place to 
appropriately manage these risks, and how can we ensure that 
the government aligns its decisions in leveraging innovative 
capabilities with the potential risk to the taxpayer, and to 
mission assurance, as well as human risk? And we have very 
little time left, so I'll let you both briefly answer that.
    Ms. Christensen. Very quickly, implementing acquisition 
processes and partnering mechanisms that recognize, and 
specifically address, the business uncertainty associated with 
early-stage companies will help the government benefit while 
managing risk.
    Mr. French. And I'd say it starts with what does the 
government want out of the program, and what is that--what is 
its--what is the core priority? And then, from there, 
optimizing around that, instead of--when you have multiple 
goals, you can sometimes lose sight of a primary risk, such as 
human safety.
    Chairwoman Horn. Thank you. I now yield to my distinguished 
colleague, the Ranking Member, Mr. Babin, for 5 minutes.
    Mr. Babin. Thank you, Madam Chair, I appreciate it. Mr. 
Stallmer, Chairwoman Horn entered into the record the Coalition 
for Deep Space Exploration's letter supporting the FAA's NPRM 
for commercial space launch and re-entry. However, your 
testimony highlights several issues with the FAA's proposed 
regulations. From your perspective, would these regulations 
advance U.S. leadership in commercial space, or set us back? 
And if they would set us back, do you see a viable path to 
fixing that?
    Mr. Stallmer. I think the regulations, as they're currently 
written in this draft, would definitely set us back. It's not--
it's--it tends to be more of the status quo. In a dynamic 
environment, where innovation is occurring with new launch 
entrants, it creates more burdens for a lot of these new 
entrants, and especially in different categories. These rules 
are primarily written for expendable launch vehicles, you know, 
which is more the legacy of the launch industry. It doesn't 
take into account capture/carry hybrid reusable vehicles. So I 
think there's a path forward with recommendations that we've 
made that could benefit all the launch providers.
    Mr. Babin. I got you. They need to be modernized a little 
bit for----
    Mr. Stallmer. I think updated----
    Mr. Babin [continuing]. Usable----
    Mr. Stallmer [continuing]. With the changing times.
    Mr. Babin. OK. All right. Thank you. And, Ms. Montgomery? 
The U.S. Senate recently passed legislation to protect the 
Apollo landing site. A companion bill was introduced in the 
House to commemorate Apollo 11. The bill would regulate private 
sector activity based on NASA policies without following the 
Administrative Procedures Act. It would also direct the 
Administration to negotiation an international agreement to 
protect the sites. This is a very laudable goal, but is this 
the best way to conserve the sites?
    India recently launched a lander to the south pole of the 
Moon, and, if all goes well, presumably they would want to 
protect their first landing site. Could this bill set a 
precedent that precludes U.S. exploration of the lunar south 
pole, for instance, where there's billions of tons of water, 
and serve as a back door way of ``staking a claim'' to regions 
on the Moon? Your comments?
    Ms. Montgomery. This is an issue that has only been 
something I've recently thought about, so these are more recent 
thoughts. One concern I would have about the way the bill works 
is that internationally there may be some concern that attempts 
to set up an exclusion zone could constitute national 
appropriation, and so I don't know where the thinking is on 
that, but it would certainly be something to explore as a 
possible concern under the Outer Space Treaty, because the--
Article 2 does bar national appropriation. Second, I would 
worry about whether it allows for emergency landings, because 
it--some of those policies may not allow that. My third concern 
with it is that both bills provide that the NASA policy would 
apply, and NASA is not a regulatory agency, and--so it is not--
the policies have been written without going through the notice 
and comment period.
    Mr. Babin. All right, thank you. And, Mr. French, the 
Department of Defense developed the Atlas and Delta launch 
vehicles with 75, 80 percent of funding coming from the 
contractors, and only 20 to 25 percent coming from the 
taxpayer. NASA developed the commercial cargo program by 
sharing their development costs with SpaceX and Orbital 
Sciences 50/50. SpaceX and Boeing currently receive 90 percent 
of their development funding for the Commercial Crew Program 
from the taxpayer. NASA recently announced that the lunar 
landers will also be funded by the taxpayer at least 90 
percent. The rationale for the early partnerships was that 
contractor could also sell to other customers, which would 
lower the government's cost.
    The success of such an approach is dependent upon the 
potential market outside of the U.S. Government. There appears 
to be a market for robotic landers, but is there a market 
outside of NASA for human-rated lunar landers that could defray 
the cost of the government, and justify a public-private 
partnership at this point?
    Mr. French. Thank you, sir. There is--there's no current 
market in this area, unlike the case of the multibillion dollar 
commercial launch market, and so it raises that risk of are you 
possibly excluding some pretty capable companies if you're 
requiring to put money in an area where they don't--aren't able 
to realize return in a 5 to 7 year period where they have to 
make those decisions.
    Mr. Babin. OK. Thank you very much. And I am expired, so 
I'll yield back. Thank you.
    Chairwoman Horn. Well, it looks like you're still here, but 
your time is up, so--don't go anywhere.
    Mr. Babin. All right.
    Chairwoman Horn. We like having you around. Mr. Crist, 
you're recognized 5 minutes.
    Mr. Crist. Thank you, Madam Chair, and thank all of you for 
being here today. Maybe sort of an out-of-the-box question, but 
who are the three largest players in commercial space today? 
For any of you, or all of you to answer. Since this is 101.
    Dr. Lal. Well, I think, again, if you go by the 
definitions, and, again, as Mike French said, you know, 
Lockheed-Martin's, you know, can be considered no less 
commercial than SpaceX, or Blue Origin. But if you were to 
define commercial space as, you know, newer companies that are 
using more fixed-price type contracts with the government, I 
would say SpaceX, Blue Origin, Planet, maybe some of the bigger 
commercial companies. Though, obviously, as I said, Lockheed, 
Boeing, Northrup are commercial as well.
    Mr. Crist. Right.
    Ms. Christensen. So I'll add to that the very sizable 
satellite operators such as, SES, IntelSat. AT&T operates 
direct-to-home television capabilities. Those are very 
substantial commercial companies operating in space. Thinking 
about human space flight, and--on-orbit activities, there, just 
as Dr. Lal said, the major companies, Lockheed-Martin and 
Boeing, Northrup Grumman. And looking at the venture-funded 
firms, the companies that have specifically had in their 
history this new kind of investment financing, I would say that 
the largest is SpaceX by far. That's a very widely accepted 
unicorn, a company with more than a billion dollars in 
valuation. They're well over 30 billion at this point in 
valuation, a privately held company. Blue Origin, and then the 
satellite startup OneWeb, which has received very substantial 
investment, several billion dollars to design and deploy a 
global broadband satellite constellation using small 
satellites.
    Mr. Stallmer. And I would concur at a lot of the, you know, 
if you look at the different segments, you know, from the 
commercial satellite to commercial launch, you know, what--we 
often talk about SpaceX, and what Blue Origin's doing, and 
Virgin Galactic, and Sierra Nevada Corporation. And certainly, 
you know, companies that are involved with these--the 
commercial cargo and the commercial crew, you know, they view 
themselves as well as commercial companies. So there's many 
different definitions to what a commercial company is. And I 
won't rank order of them, because I have 85 of them. I think 
they're all great.
    Mr. Crist. You ought to know it better than anybody.
    Mr. French. You know, in my view, I'd look at, you know, 
first I'd say does the company have an active business----
    Mr. Crist. Right.
    Mr. French [continuing]. Dealing with the commercial sector 
outside the U.S. Government, and then, if you meet that 
threshold, then how big is it? How much is its revenues? Does 
it have profit? Many of these companies don't have profit. And 
in that case, it's Lockheed-Martin, Boeing, and Northrup 
Grumman with those criteria.
    Mr. Crist. And, Ms. Montgomery, I might have a little 
different question for you, if you don't mind. You touched on 
the treaty, and how we handle, I guess, property that's in 
space. And could you elaborate, and sort of explain to us what 
this treaty is, who the parties to it are, how it has authority 
to exist?
    Ms. Montgomery. Sure. Back in 1967 the major spacefaring 
nations, principally the United States and the USSR, signed the 
Outer Space Treaty, and it is something that has been signed by 
most countries, including all of the major spacefaring nations. 
So that includes Russia----
    Mr. Crist. India, China----
    Ms. Montgomery. Right, India, China, Australia, U.K., 
everyone. It has a provision in it, under Article 2, that bars 
national appropriation, and I always emphasize that national, 
because a lot of people take different parts of the treaty and 
say, well, if this treaty bars governments from appropriating, 
it must also bar private actors from appropriating outer space. 
So I disagree with all that, and I've laid out all the theories 
in my written testimony, but you probably don't want me to----
    Mr. Crist. Why do you disagree with that?
    Ms. Montgomery. Well, first of all, just a plain reading of 
the text says national appropriation, and I am not a nation-
state, so if I could get up there and establish some adverse 
possession, maybe I'd have a claim.
    Mr. Crist. Like homesteading?
    Ms. Montgomery. Sure, exactly. And I think that it would be 
useful for the United States to look at some form of 
homesteading in order to be in accordance with the treaty----
    Mr. Crist. Well, we did it for the United States.
    Ms. Montgomery. Right. I've seen some clever theories 
presented, one of which is that you would recognize adverse 
possession rights of a person or company of any nationality, 
and that that should accommodate certain concerns under the 
treaties. So, you know, we look at property rights in outer 
space in two ways. One is extracted resources, like mining, you 
know, pulling fishes from the sea, taking platinum group 
minerals from the craters of the Moon, or water, which might be 
more valuable.
    And that, I think, the United States has settled 
domestically, and Luxembourg has copied the United States by 
saying, we're going to recognize the rights of people who 
commit their labor and extract resources from the Moon or 
asteroids. Where the uncertainty still remains is on terrain. 
This is a long-term concern, but I think that, with the advent 
of venture capital, and people willing to take risks, I think 
they might be willing to take more risks with their money if 
they think that they can get a return, if they can mortgage and 
put up for collateral any land that they obtain, alienate, you 
know, sell it, transfer it, lease it. All of these things are 
valuable abilities, rights, that probably will help incentivize 
a lot of activity. And we can look at our own history to see 
how private property has led to prosperity. I think the same 
would hold going into the future.
    Mr. Crist. With the Chair's indulgence, just a quick 
question, because my time is up, but the 1967 treaty, was that 
ratified by the Congress?
    Ms. Montgomery. Yes, by the Senate. Yes.
    Mr. Crist. Thank you. Thank you, Madam Chair.
    Chairwoman Horn. Thank you, Mr. Crist. And before I 
recognize our next Member for questioning, I have a 
presentation for Mr. Olson, who kindly pointed out in our last 
hearing that we were rapidly approaching OU-Texas, and I think 
you need some decoration for your office to prepare you, so----
    Mr. Olson. Paybacks----
    Chairwoman Horn. I know. You should be careful what you 
start. He needs, you know, some good----
    Mr. Olson. Boomer sooner.
    Chairwoman Horn. Boomer--yes, boomer sooner. He needs 
something to remind him of who's going to come out on top of 
the Red River Rivalry. I'm not, but, you know, I am an Okie 
through and through, so I can't allow, you know, my friend from 
Texas to take over. Yes----
    Mr. Weber. So, Madam Chair, apparently in this Committee 
there's still space for fun.
    Chairwoman Horn. Yes. I like it. Mr. Olson, you're 
recognized for 5 minutes.
    Mr. Olson. I thank the Chair. Hook 'em. Welcome to our five 
witnesses. My district sits in the shadow of the Johnson Space 
Center, the home of human space flight. In 2015, the FAA 
approved the Houston Spaceport. It's a commercial launch port 
being built in Texas 22, at Ellington Joint Reserve Base, right 
there in my district. That's the base that most of the flight 
training crafts at JSC, what they've done there, they've got 
some military operations there, some helicopters, the Coast 
Guard. They fly drones out of there with the Army. Last month 
they announced their first phase of construction for the 
spaceport, basically the infrastructure of the streets, the 
water, the electricity. The City Council there in Houston has 
approved $18.8 million this past October for that 
infrastructure build.
    Their vision is to launch microsatellites from the 
spaceport there, help out with astronaut training, zero-G 
training, get rid of the vomit comet, they call it, that bird 
that just flies for about 30 seconds down they can't train. 
This can make a lot more training. They actually want some 
space tourism. Follow the flight that Alan Shepard, you know, 
into space, sub-orbital, go up for 10 minutes, come back down, 
fly over the Gulf of Mexico. It's a great operation. They've 
got two tenants already there. They've got Intuitive Machines. 
They've been selected by NASA to build what's called the Nova-
C. That's a vehicle that's going to the Moon by 2021, is the 
current plan. They've also got Trumbull Unmanned, which builds 
UAVs (unmanned aerial vehicles). As you know, those guys are 
good for data collection, and they were great during Hurricane 
Harvey to see levees, and people trapped real time.
    And so my point is, in these companies there, got a lot of 
companies in Houston, and all across the country, that are 
making great strides on commercial spaceports like that, and 
commercial space. We've proven that commercial flights to the 
Space Station, cargo, are working, no doubt about that. I 
expect crew flights, human flights, to the space station with 
commercial vehicles will not be a problem sometime, Mr. 
Stallmer, later this year. My question is, since we're doing 
commercial rockets to the space station for cargo, and soon 
crew, how about we turn over the space station to the 
commercial sector? Is that a good idea? There's been challenges 
we should know about? How about making it all private? The 
space station, the vehicles that go up there, humans, cargo?
    Mr. Stallmer. I certainly appreciate your endorsement of 
that, and I think in time we may be there. I think NASA has 
been an excellent partner on the space station. You see the 
great work that the ISS National Labs have been doing, formerly 
known as CASIS, on opening the commercial marketplace on the 
International Space Station, what NanoRacks is doing, Made In 
Space. So the commercialization of the space station is slowly 
growing, and someday that may be the case, that they turn it 
over to the commercial sector, and I think eventually we will 
see routine commercial flights to the International Space 
Station. So I'm very enthusiastic about the work that's being 
done, but one thing we do need is the certainty that the space 
station will be there so we can, you know, work to greater 
commercialize it.
    And as far as the operations going on, Houston and 
Ellington Field, I think it's a model for what is going on in 
other spaceports, the diversity of operations that they have 
going on in bringing in these new customers. And we see this 
with many--we--of the 12 spaceports that we have here in the 
U.S., what they're doing, the diversity of bringing in a 
variety of companies, and the testing that's going on, and the 
flights that are going on. It's not just limited to the East 
Coast and West Coast ranges, which are also doing fantastic 
work.
    Mr. Olson. I forgot to mention too, education. San Jacinto 
College has set up operations there at the spaceport to train 
future technicians to do the manufacturing, to run that 
spaceport. So, again, private sector, private sector, private 
sector. Another question for you, Mr. Stallmer, looks like 
we've got low-Earth orbit pretty much settled for commercial. I 
don't think that's a big problem. But how about beyond low-
Earth orbit, going to the Moon? I know that's a long way off, 
but we've been preparing for commercial vehicles and commercial 
crews to take us to the Moon, and maybe Mars, and make this 
whole endeavor commercial?
    Mr. Stallmer. NASA set out--has set out a great vision with 
the Artemis Program about bringing--the next step going back to 
the Moon, and I know that the commercial sector is going to 
play a major role in landers, ascent vehicles, robotics, and 
even with the gateway, as we go down that step. So I think the 
role--and that partnership with NASA and the commercial sector 
is going to enable us an affordable basis to do that, to 
further our deep space exploration.
    Mr. Olson. Thank you. I'm out of time. One further 
question, can you sing ``The eyes of Texas are upon you''?
    Mr. Stallmer. I am going to work on that one, Congressman. 
Being a northeasterner, we don't do that.
    Chairwoman Horn. The Chairwoman would suggest----
    Mr. Olson. Or Texas fight----
    Chairwoman Horn [continuing]. That's not the best idea.
    Mr. Olson [continuing]. Texas fight?
    Mr. Stallmer. Yes. Congressman Waltz will probably want me 
to sing the VMI alma mater song at some point, so I've got a 
lot of work to do in front of me on that one, but I appreciate 
the challenge.
    Mr. Olson. Thank you. I yield back.
    Chairwoman Horn. That may be a slippery slope, I think. The 
Chair recognizes Mr. Perlmutter. You're not going to start 
singing, are you?
    Mr. Perlmutter. Fight, CU, down the--no, I'm not.
    Chairwoman Horn. Yes.
    Mr. Perlmutter. So, Mr. Olson, it's so nice to have you 
back on this Committee, I have to say that. It's very important 
that you're on this Committee now, that's a whole other story. 
So, Professor, I want to talk to you about space law for a 
second, because I was a litigator for a long time. I did a lot 
of real estate, securities, that kind of commercial litigation, 
and I appreciate your comment about the potential for the 
venture capital companies to want to invest some more, but I 
guess I'm more concerned that there isn't a body of law. I 
mean, you say adverse possession. I don't know if the Russians 
have adverse possession, whether they consider that part of the 
law, or, you know, exactly how you mortgage, you know, in 
Japan. And whether or not the Space Treaty--and what I am 
concerned about is whose body of law controls? Is it the law 
the sea, is it something that in my opinion, we've really got a 
lot of work to do on it if, in fact, we're going to try to 
retire some of the risk. And I'd just like your comment, and 
Mr. French you may comment on it too, if you will, and then 
I've got some questions about going to Mars.
    Ms. Montgomery. Well, I did read a marvelous article by a 
professor from South Dakota, I think he was Simmons, who talked 
about how the adverse possession can be viewed through a 
Marxist lens. So perhaps it is possible for us to persuade the 
Russians that adverse possession might be a tenable approach 
for recognizing property rights in outer space.
    But I think--one of the other points he made, and I think 
it was a good one, was that this could all develop organically. 
You know, one approach would be for you all to set up some 
statutory criteria, but otherwise we could see cases in court 
between two U.S. companies, and they go to court because they--
just finally gotten too close to each other, and they're 
annoying each other, so now they want it resolved. And, if 
they're U.S. companies, they'll go to a U.S. court.
    Mr. Perlmutter. Does the Space Treaty----
    Ms. Montgomery. Internationally----
    Mr. Perlmutter [continuing]. Establish any kind of a 
framework if there is conflict between, you know, two 
individuals, or two countries, as to who has a claim, and that 
the other guy's jumping the claim?
    Ms. Montgomery. Not for claims, no. Mostly it's--if there's 
conflicts internationally between countries, you have 
diplomatic talks. But not for individuals, and I do not know--I 
do not believe there's one for claims in land.
    Mr. Perlmutter. OK. Just personally, you know, we passed 
the Space Resource Exploration and Utilization Act of 2015, 
which I think gives a little bit, but, for me, I think we've 
got just a lot more work to do, and I'm speaking as somebody 
who had to go try these cases. You know, and that's where we 
have a complete body of--or a pretty good body of law here in 
the United States about who owns what, and who has certain 
rights to those kinds of things.
    Let me change the subject for a second, because, as you all 
know, my goal on this Committee is to help continue to push us 
to getting our astronauts on Mars by 2033, when the orbits 
between the Earth and Mars are the closest. And so, to Dr. Lal, 
to Mr. Stallmer, what kind of interest is there in the 
commercial sector on a major mission of that sort? I personally 
think it's got to be international in scope, and public-
private, and I hope to see NASA in the lead, but how do you see 
this developing from the commercial sector?
    Dr. Lal. So, about a year or so ago, at the mandate of this 
Subcommittee, and at the request of NASA--wrote a report on 
evaluating the prospects of getting to Mars by 2033, and we 
found that that is not feasible, as you know----
    Mr. Perlmutter. If we don't fund it.
    Dr. Lal. Especially----
    Mr. Perlmutter. That was one of the assumptions in there.
    Dr. Lal. But to specifically answer your question, you 
know, commercial entities would be just as happy to take the 
money as anybody else. There's no, you know, there's no 
pushback from commercial sources to get to Mars. The important 
thing to mention is that some of the activities that need to 
happen, you know, the linchpin of the Mars mission is the deep 
space transport, the DST. It's a very complicated piece of 
machinery. It needs to keep humans alive for 1,100 or more 
days. It needs to have a power and propulsion system that it--
that can get it there and back, and it needs to have an--system 
that is--that we do not have. It needs to have almost complete, 
100 percent, recycling of air, oxygen, et cetera.
    These are just very difficult things to do on fixed-priced 
sorts of budgets, because they're high-risk, and cost-plus 
contracts seem to be better for these----
    Mr. Perlmutter. It's kind of a new venture?
    Dr. Lal. Yes. I think----
    Mr. Perlmutter. Mr. Stallmer?
    Mr. Stallmer. I would say we can't get there if we don't 
start soon. You know, 2033, you put a date out there, and we 
work to that. There are technical challenges, but I can tell 
you that I have two individuals that are quite passionate about 
getting to the Moon and beyond, and are willing to back that 
financially with their own personal net worth, and are 
developing systems, and have that vision. But you have to build 
that infrastructure as a stepping stone to that vision, and I 
see that with the lunar program, with Artemis, and that's a 
stepping stone onto Mars. But, as I said, we can't get there 
until we start.
    Mr. Perlmutter. Thank you. I yield back.
    Chairwoman Horn. Thank you, Mr. Perlmutter. The Chair now 
recognizes Mr. Waltz for 5 minutes.
    Mr. Waltz. Thank you, Madam Chair. Recently had the chance 
to take my family down to the Cape for the amazing celebration 
of Apollo. And, in conversations with my daughter and family, 
they were astounded, as much as their dad talks about space, 
and why we need to be there, they were astounded to learn that 
the United States cannot send humans, we cannot send American 
astronauts to space. And I think that's always worth repeating. 
I think that our dependence on the Russian RD-180 is 
unacceptable, Mr. Stallmer, and I sit on the Armed Services 
Committee and see the national security implications of this 
all the time.
    So I know the Air Force is working in the right direction 
with the Launch Service Agreement contracts to improve our 
domestic capabilities. How can Congress help reduce this 
dependency also on the civilian side?
    Mr. Stallmer. The dependency on foreign launch vehicles, or 
on innovation of developing newer technologies?
    Mr. Waltz. Well, specifically on the Russian-made rocket 
engines.
    Mr. Stallmer. Well, I think we're moving beyond that. I 
think there's a limitation on how many more Russian engines can 
be used. But what I would focus on is the innovation that 
you're seeing from several U.S. commercial companies on 
building new technologies and new engines. The fact that we 
were, for many years, dependent on a Russian engine for one of 
our main rockets is--well, that's a political hot potato, but 
what we are seeing right now--SpaceX, Blue Origin, Vector, 
RocketLabs--kick me, because I probably can't name them all, 
the new--Virgin, in Sierra Nevada, the new entrants that are 
building new American technology, new engines that hasn't been 
done in 20 years. I think that's a tremendous breakthrough, and 
I think, with Congress' support, and the certainty on certain 
regulations, we will continue this innovative growth on this 
new technology.
    Mr. Waltz. Please, just in the interest of time, send over 
anything else for the record, and that's for all the panelists, 
that Congress can help with to get government out of the way of 
this innovation. We need to create a framework, and take the 
approach of creating a framework, that emboldens innovation 
from the private sector, and obviously within reason, and with 
safety first, but that gets out of the way, and any way we can 
be helpful, we stand ready to do so.
    I have Embry Riddle Aeronautical University in my district. 
They're doing incredible work on space situational awareness 
and space traffic management. DOC, the Department of Commerce, 
recently announced they are beginning to accept space 
situational awareness data from DOD, Department of Defense, in 
order to provide a commercial storefront for the private 
sector, and our international partners. Commerce officials, to 
my understanding, have been clear they don't want to be, so to 
speak, a traffic cop in space. How do we, and this if for 
anyone. Mr. Stallmer, I'll start with you, but how do we ensure 
the transfer of this responsibility from DOD to Commerce is 
done? And, again, without creating new levels of bureaucracy or 
regulatory burden.
    Mr. Stallmer. You have to leverage the commercial tools 
that are out there on the marketplace right now. What satellite 
companies are using for their own space situational awareness, 
the space--what--the Space Data Association, what they're 
using, the commercial products that are readily available at an 
affordable cost. You don't need this long lead time 
development. You just need to procure commercial products that 
are existing on the market that everyone else in the world is 
using.
    Mr. Waltz. Are we doing that?
    Mr. Stallmer. Some government agencies are doing that, and 
I think some government agents could be a lot more efficient in 
the way they procure commercial services.
    Mr. Waltz. OK. Again, for the record, on which government 
agencies, and which----
    Mr. Stallmer. I'd be----
    Mr. Waltz [continuing]. Specifically we can----
    Mr. Stallmer [continuing]. Be happy to provide you with 
that list.
    Mr. Waltz. Ms. Christensen, just in the time remaining, 
Bryce issued a report on Volusia County, in my district, on 
their commercial space supply chain characterization. So the 
report stated that since 2000, over 250 venture capital firms 
have invested nearly $14 billion in startup. The scale of this 
investment will have generational consequences for Florida's 
Space Triangle, the Cape, Daytona, Orlando. Can you describe 
how the space industry will create jobs up and down the supply 
chain, and those kind of spill-on effects across multiple 
industries?
    Ms. Christensen. I'm pleased to. The end products of the 
space businesses that are being funded by venture capital are 
often analytic services, communications technologies--
capabilities that support and enhance a wide range of other 
businesses. For example, telecommunications services are 
critical to any number of small businesses that rely on 
flexibility and international access.
    From those end users of downstream applications, jobs are 
created all the way back up through the supply chain--
manufacturing, computing capabilities, test and evaluation, 
engineering services, technologists. And then a whole range of 
people and services that support companies in a growing 
ecosystem that is not directly space related, but that creates 
jobs for people in support industries, ranging from legal 
services and consultants, to food service workers, and people 
in communities that are seeing that growth.
    Mr. Waltz. Thank you. Madam Chair, I yield.
    Chairwoman Horn. Thank you, Mr. Waltz. The Chair recognizes 
Ms. Wexton for 5 minutes of questions.
    Ms. Wexton. Thank you, Madam Chair, for yielding, and thank 
you to the panelists for appearing today. I represent Virginia, 
where we are proudly the home of Wallops Island, the MARS, the 
Mid-Atlantic Regional Spaceport, and the aerospace industry is 
very important to us. In particular, my district is home to 
what was formerly Orbital, and is now Northrup Grumman, which 
developed the Antares and Cygnus, Antares rocket and the Cygnus 
capsule, for resupplying the International Space Station.
    And it's a good example of--I think, Mr. French, in your 
testimony you talked about the public investment, private 
service model that we have seen in aerospace and commercial 
space flight. And as we, as legislators, really have to plan 
for the future, I guess the question I would have for you, Mr. 
French, and for you, Ms. Christensen, and it's kind of a two-
part question. First, can you speak to the projections for the 
frequency and pace of launches from spaceports in the next 
decade, or couple decades? And, related to that, how can 
spaceports better prepare for the future users, and ensure that 
things will be successful for these businesses?
    Mr. French. I'll start, and then I'll let Carissa give you 
the real data. First off, on the partnership with Northrup 
Grumman, then Orbital, is a great example of the right factors 
in place. There was an existing launch market that NASA could 
capitalize on, and make that partnership happen, and be 
successful. And I think you're seeing similar things--Wallops, 
I think, is doing a good job in thinking about that, as it 
partners strategically with different government entities to 
make it a sustainable launch site. So that's, sort of, I think 
a very good strategy from the Wallops perspective.
    Ms. Wexton. OK. And what do you foresee--is there anything 
else that we can do better, or what do you foresee in terms of 
the pace of launches coming out of spaceports in the future?
    Mr. French. I think, from my perspective, the two that--
you've got quite a bit of, you know, future demand in those 
programs you described. I think there's something like 65 
launches planned with the NASA commercial crew and cargo 
programs that Northrup Grumman is a part of. And then I think 
you have a series of DOD launches that are likely expected, 
given how important space has become on the national security 
side.
    Ms. Wexton. OK. Thank you.
    Ms. Christensen. We are generally seeing--with regard to 
projections for the frequency and pace of launches--we are 
seeing increasing launches in recent years, and will likely in 
the next few years. That said, launch is often cyclical, 
particularly as we're seeing the launch of larger 
constellations, which then will launch, have a pause, and then 
need to be replenished. But in recent years, in the foreseeable 
future, we're seeing growth.
    With regard to how spaceports can better prepare, I would 
note two things. One is building partnerships with launch 
providers, which is clearly an area of great success for 
Wallops, and the second is engaging with small satellite 
operators, who will have different needs than satellite 
operators that launch large satellites, with regard to on 
facility services, integration, and so on.
    Ms. Wexton. And is that because that's an emerging market 
that hasn't gotten enough attention recently, or----
    Ms. Christensen. Small satellite operators are the primary 
satellite recipient of venture funds, and small satellite 
startups and emerging firms are seeking to launch large 
constellations of small satellites, and they are reaching the 
point where they are ready to begin launching, and so those 
deployment challenges will start to be more and more important.
    Ms. Wexton. Very good. Thank you. And, Mr. Stallmer, I see 
that you serve in a number of roles within the FAA's rulemaking 
committees, including space launch and re-entry, and 
spaceports, as well as FAA's Commercial Space Transportation 
Advisory Committee. And one of the concerns I have is that--you 
may recall that at Wallops we had a pretty harrowing crash a 
few years back, and there seems to be some variance in the 
industry about how accident investigations are conducted for 
these commercial launches, in terms of who conducts the 
investigation, and whether the government--whether the industry 
is going to self-investigate, or if NASA's going to lead, or 
independently investigate. And so, as we look into these 
issues, how can we ensure that there's transparency in the 
safety process as we look to expand commercial space travel?
    Mr. Stallmer. I think the best way for transparency is the 
partnership between both parties, whether it's, you know, with 
a government facility, a launch facility, and the launching 
party. So if, for instance, with Orbital ATK, working closely 
with NASA on the investigation that--I believe that happened in 
October 2014----
    Ms. Wexton. Um-hum.
    Mr. Stallmer [continuing]. To find--come to the accurate 
conclusion in the quickest amount of time, but going through a 
thorough investigation together, because I think you need the 
expertise from both parties. Congresswoman, if you wouldn't 
mind, as you brought up some of the issues that the ranges 
have, especially at Wallops, and on these East Coast ranges----
    Ms. Wexton. With the Chairwoman's indulgence, I don't mind 
at all.
    Mr. Stallmer. Because I think it's rather pertinent what--
some of the issues that the spaceports are dealing with is--and 
the launch industry's dealing with, Wallops, and down on the 
Cape, is the integration of our national air--the National 
Airspace System, the NAS, and this is a finite resource that we 
have, of the airspace. So whenever there's a space launch, we 
need to coordinate with the aviation community. And this has 
been a problem at Wallops in the past, which caused the delay 
of one of the launch vehicles, and----
    Ms. Wexton. I heard about it on the FAA side, too.
    Mr. Stallmer. Yes. So that's one of the different 
committees--unpaid committees that I'm working on. That's one 
of the big issues that we are having, is working with the 
aviation community, and the launch community, on how we can 
effectively manage the National Airspace System. And thank you 
for being my Congresswoman.
    Ms. Wexton. You're very welcome, thanks. And with that, 
I'll yield back.
    Chairwoman Horn. Thank you, Ms. Wexton. The Chair now 
recognizes Mr. Posey for 5 minutes.
    Mr. Posey. Well, thank you very much, Madam Chair, for 
holding this great meeting, and thank the panel for being here. 
I had to step away for a few minutes. Secretary Chao was 
announcing some grants that were approved, and one of them 
happened to be something we've worked on for a couple years, 
involved $90 million to access Kennedy Space Center. So, you 
know, if we can't get there, if the bridge collapses, we don't 
have a space center, so I had to step away for a few minutes, 
and, you know, in Florida alone, the space industry impact 
totals $19 billion, 130,000 jobs in our State, so it's really 
big.
    Space is important, but it's the commercial and civil space 
working together that really drives it, as most of you already 
know. Another driver is the Space Resource Utilization Act, 
which I introduced with Representative Kilmer in 2015, which is 
now law, and it allows for U.S. entities to retain the rights 
of resources they extract from celestial bodies, like 
asteroids, and it provides legal certainty for those who make 
significant investments to pursue space-based resources, like 
platinum, gold, and other high-value minerals. And I think of 
it much as you would have the California Gold Rush, except this 
is in space.
    And I understand there was some discussion about that, as 
to whether or not this legislation had any property rights 
claiming in it. And let me assure absolutely, positively, 
unequivocally, beyond any shadow of doubt it did not. It refers 
only to resources, and so, you know, we don't lay claim to any 
celestial bodies because of that particular legislation, and 
let's just clear the air. Think that should be understood by 
everyone.
    Ms. Montgomery, in your testimony, you said that the Space 
Resource Exploration and Utilization Act of 2015 resolved one 
half of the uncertainty by recognizing private claims to 
extract the resources. And would you say that this, then, has 
helped developed the commercial industry to what we see today?
    Ms. Montgomery. I would say it has been very helpful.
    Mr. Posey. Great.
    Ms. Montgomery. So----
    Mr. Posey. You can pontificate longer, if you'd like.
    Ms. Montgomery. OK. All right. I will. No, I think that it 
has helped to put to rest a lot of uncertainty that the private 
sector felt about whether it could legitimately claim rights in 
the resources it worked to get. So, you know, the Moon Treaty 
is out there. The United States hasn't signed it, but it 
confuses people, and the ban on national appropriation also 
confuses people, so I think that what Congress did in 2015 
really cleared the air. It was helpful.
    Mr. Posey. Yes. We, you know, we hear from some great 
panelists on this Committee. I mean, I think this is the 
greatest committee in the world, and here's some great, 
interesting, learned people, and we were told one time they 
think they've identified an asteroid with more platinum-based 
deposits on it than have been mined from the history on Earth 
during the entire history of man.
    Ms. Montgomery. Wow.
    Mr. Posey. I mean, that's a lot, and, you know, we know the 
environmental damage this mining does, and we know if we can 
pluck this stuff off an asteroid, you know, it's so much better 
for everybody. You know, win/win/win/win situation. Mr. 
Stallmer, would you say the law has helped develop the 
commercial space industry in what we're seeing today?
    Mr. Stallmer. Yes. Just--and I'll elaborate. I think your 
leadership, and working with Congressman Kilmer, was really 
breakthrough in space resources, and how we pursue that, and I 
really think the long-term impact of that type of legislation, 
we won't really see the benefits until years to come, but I 
think it was very foresightful on that legislation, so I think 
it will have a huge impact on the commercial industry.
    Mr. Posey. Yes. I remember hearing Neil DeGrasse Tyson, 
when we had him as a witness one time, he lectured in the 
Jefferson Building, and he said, you know, space is the only 
thing that we really spend money on, that Congress spends money 
on, that doesn't benefit us here today, that's really in the 
best interest of future generations. Like planting trees, the 
shade from which you never expect to enjoy the shade. And I 
think that's great, and I hope that helps energize and helps 
interest more of our young people. Got 33 seconds left, if 
anybody wants to weigh in on that.
    Dr. Lal. We wrote a report recently, at NASA's request, on 
asteroid mining, and step zero is knowing what the potential of 
asteroids is, but then the steps one through seven, you know, 
you--from prospecting to going--getting to the asteroid, to 
mining it, to bringing things back, and there's a cost 
associated with each. And the tradeoff that needs to be done is 
how much would it cost to get there and bring the material 
back, and if that number is a positive number. So that's 
something to think about.
    Mr. Posey. Thank you. Time has expired.
    Chairwoman Horn. Thank you very much, Mr. Posey. I agree, I 
think this is the greatest committee. Not only do we have space 
for fun, Mr. Weber, but we're doing important work, and raising 
important questions. So the Chair now recognizes Mr. Weber for 
5 minutes.
    Mr. Weber. Thank you, ma'am. Thank you for your indulgence 
in letting me participate. Ms. Montgomery, I'm a little bit 
fascinated by your testimony on space law. How long have you 
been kind of in space law?
    Ms. Montgomery. Going on 30 years. I was in private 
practice, and did some satellite work, and then about 25 years 
ago I joined the FAA, where I spent 22 years doing space law.
    Mr. Weber. OK. And I notice----
    Ms. Montgomery. Rockets.
    Mr. Weber [continuing]. You talked about in 1967, there 
were signatories to the treaty, and, of course, that would've 
been under Nixon, and you said it was ratified by the Senate, I 
believe?
    Ms. Montgomery. Yes. Yes, it was.
    Mr. Weber. OK. And you weren't even in elementary school at 
that point, so I'm fascinated by your learned----
    Ms. Montgomery. Sir, I was in elementary school.
    Mr. Weber. Work with me here, I'm trying to help you.
    Ms. Montgomery. But I have to be truthful.
    Mr. Weber. Well, I appreciate that, as any good counselor 
would.
    Ms. Montgomery. Um-hum.
    Mr. Weber. And I'm reading about the case, where you're 
talking about what kind of law would govern this. And the 
reason I'm saying that is because we're going to talk about 
some SpaceX stuff, and their failure. And you cite the case 
Medellin vs. Texas from 2008, which I'm thoroughly familiar 
with, because it was a Mexican national that raped and killed 
two girls, and was sentenced to death, and I was going in as a 
State legislator and nominee and was following that very 
closely. And you talked about the ruling, where they said that 
those kinds of treaties, because the Mexican government sued, 
of course, wanted to make sure that his rights were violated, 
he didn't get notified that he had the right to contact his 
embassy, you know the case.
    Ms. Montgomery. Um-hum.
    Mr. Weber. So, anyway, I'm kind of fascinated that you say 
that that might apply to space treaties. Go ahead.
    Ms. Montgomery. Yes, I would say it does, because in the 
law you can have principles that will apply across industries, 
or situations, if--even though they're all very different. So 
although the treaty was ratified, that is different from 
whether it is self-executing or not. And so when the Supreme 
Court talked about the treaty at issue in the Medellin case----
    Mr. Weber. Right.
    Ms. Montgomery [continuing]. It articulated the principle 
that if a treaty has been signed onto and ratified, but the 
entity in the U.S. Government that it obligates is the U.S. 
Congress, then everyone has to wait for the U.S. Congress----
    Mr. Weber. To act.
    Ms. Montgomery [continuing]. To act----
    Mr. Weber. Yes. That's right.
    Ms. Montgomery [continuing]. By passing a law.
    Mr. Weber. Right. And I agreed with that opinion, by the 
way, just for the record.
    Ms. Montgomery. Um-hum.
    Mr. Weber. But I want to fast forward. How many other 
attorneys are there and you may not know this, where do they 
teach space law? I notice you're from what college?
    Ms. Montgomery. I teach at Catholic University's Columbus 
School of----
    Mr. Weber. OK.
    Ms. Montgomery [continuing]. Law. There is also, sorry 
Representative Brooks isn't here, Ole Miss----
    Mr. Weber. OK.
    Ms. Montgomery [continuing]. Has a space law course. 
Nebraska has a space law curriculum. And then Georgetown and GW 
also have space law classes. American University, space law 
classes.
    Mr. Weber. Right.
    Ms. Montgomery. And McGill in Canada.
    Mr. Weber. My fear is that we don't want those 
international, indeed extraterrestrial, if you will, treaties 
being applied down in the various and sundry states, and 
hampering what commercial space exploration could do. And I'm 
thinking about, is there a move to take that law, and to hold 
countries and states accountable? Have you seen that at all?
    Ms. Montgomery. Yes, sir. When Moon Express went to the FAA 
for a payload review, the FAA did grant it, but it said, in its 
press release, that--we are concerned that they're not going to 
be regulated, and it's good they're only there for 2 weeks, 
otherwise, under Article 6, we would perhaps have had to say 
no. And I would say that that is contrary to the Supreme 
Court's articulation of how----
    Mr. Weber. And you noted in one of your footnotes that one 
of the Administrations took a different view of Article 6, one 
of the preclusions. Was that the Obama Administration?
    Ms. Montgomery. Yes, sir.
    Mr. Weber. OK. That's what I gathered by the date. Let me 
move forward here. I'm deeply concerned about the secrecy 
surrounding the launch pad explosion that destroyed SpaceX's 
Dragon capsule. Are you all familiar with that? I'm not getting 
all head shakes. OK. As you know, there was an unmanned test at 
Cape Canaveral, and it was recently revealed that a critical 
parachute failure occurred during the Dragon test capsule in 
April. You all are all aware of that? No? I'm not getting all 
head shakes. OK. This was kept secret from the public.
    So this mishap is especially distressing, given that NASA's 
Aerospace Safety Advisory Panel specifically directed that 
parachute designs be finalized and proven before test flights 
occur. Back to the counselor. Ms. Montgomery, this should be 
governed by State law, Federal law? Does it fall under the 
purview of the Space Treaty? What say you?
    Ms. Montgomery. It is governed by the FAA regulation--the 
Commercial Space Launch Act and the FAA regulations, in terms 
of--I'm not really that familiar with the incident, but was it 
for a commercial crew, or was----
    Mr. Weber. It was unmanned, but yes, it was for a 
commercial crew.
    Ms. Montgomery. OK. So, as you may be aware, Congress told 
the FAA that it could not regulate for the safety of persons on 
board until 2023, that the industry is supposed to have the 
same sort of barnstorming era that the aviation industry got in 
the early days, so that--the FAA may be hampered in its ability 
to look at that, I don't know. But I stress that I don't know 
because I don't----
    Mr. Weber. Well, I know Mr. Stallmer made a comment in his 
remarks that the FAA had only gone halfway toward regulations, 
I believe you said? Hadn't gone far enough? And I just want us 
to be careful to know who's going to be controlling, who's 
going to be regulating, and what law governs. You have a 
comment? Madam Chair, if you'll indulge me? Mr. Stallmer?
    Chairwoman Horn. Yes.
    Mr. Stallmer. I--what I was referring to was--the halfway 
as in this current NPRM on some of the regulatory----
    Mr. Weber. OK.
    Mr. Stallmer [continuing]. And the streamlining.
    Mr. Weber. OK. I got you. Thank you, and I appreciate your 
indulgence.
    Chairwoman Horn. Thank----
    Mr. Weber. I'll yield back.
    Chairwoman Horn. Thank you, Mr. Weber, and thank you for 
raising, I think, some very important questions. And thank you 
to our panel. If it wasn't clear before we started, there are a 
lot of issues that face us about commercial space, what exactly 
that is, Dr. Lal, to your point, how we classify it, how we 
quantify it, how we set the stage to encourage growth, but also 
provide accountability and certainty moving forward, and 
address the need for a legal framework, where one doesn't 
necessarily exist in the regulatory environment, in order to 
make all of these things possible.
    Taking this away, we clearly have a lot to look at moving 
forward. And I'll just sum it up with a few observations. There 
are a few buckets that I think we need to look at. One is what 
is the right level of oversight and investigation, and how we 
can--and transparency. I think, to your point, Mr. Weber, 
because that falls under a NASA contract, and how we look at 
that, the regulatory framework, and all of the things that are 
involved in that. And then what is commercial space? If 90 
percent of a given program is a NASA program is funded by the 
government, at what point does that become commercial, and 
where do those issues enter in?
    And the overall question is, where the markets have 
developed, and the places where they exist independently of a 
government customer. Again, going back, Dr. Lal, to your 
initial testimony that, despite innovation, the principal 
customer for many of these areas is still the government, which 
we see--how to set the regulatory framework, how to create the 
right balance, and how to properly define what is governmental, 
with private industry being a part of that, and what is truly 
commercial for the sake of commercial, and how we set the 
stage?
    So clearly a lot of issues that we have to tackle moving 
forward, and sincerely appreciate your testimony, and your 
engagement today, as well as all of our Committee. I think this 
just goes back to the importance of the work that we're doing 
here, and I think a very clear bipartisan concern for doing the 
best we can to set this up to succeed in many ways. So thank 
you for being here today, thank you for your attention, your 
testimony, and--OK, wait, I've got to make sure I read the rest 
of the thing. Before we bring the hearing to a close, I want to 
thank our witnesses, and the record will remain open for 2 
weeks for additional statements from the Members, and for any 
additional questions the Committee may ask of the witnesses. I 
would say be prepared, we may have additional questions. And 
the witnesses are excused, and this hearing is adjourned.
    [Whereupon, at 3:52 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
